No. _____________
IN THE
SUPREME COURT OF THE UNITED STATES
JIMMY PIKE
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
I, Pia Lederman, do certify that on this date, December 3, 2020, pursuant
to Supreme Court Rules 29.3 and 29.4, I have served the attached Motion for
Leave to Proceed in Forma Pauperis and Petition for a Writ of Certiorari on
each party to the above proceeding, or that party's counsel, and on every other
person required to be served. I have served the Supreme Court of the United
States via Federal Express, overnight. The Solicitor General, and the petitioner
were each served by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class
postage prepaid. Assistant United States Attorney Leigha Amy Simonton was
served via email as she had previously consented to accept such service.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Leigha Amy Simonton

(leigha.simonton@usdoj.gov)
Assistant U. S. Attorney
U.S. Attorney's Office
Northern District of Texas
Suite 300
1100 Commerce Street
Dallas, TX 75242-1699
214-659-8684
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave.,N. W.
Washington, DC 20530-0001
/s/ Pia Lederman
Pia Lederman
Counsel of Record for Petitioner

